No. 19-100

In the Supreme Court of the United States
CROWN ASSET MANAGEMENT, LLC, PETITIONER
v.
MARY BARBATO

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY BRIEF FOR THE PETITIONER

MARK I. SANDERS
MATTHEW R. ROSENKOFF
TAYLOR ENGLISH DUMA LLP
1600 Parkwood Circle,
Suite 200
Atlanta, GA 30339

KANNON K. SHANMUGAM
Counsel of Record
MASHA G. HANSFORD
JESSICA A. MORTON
JOEL S. JOHNSON
LAURA E. COX
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

TABLE OF CONTENTS

Page
A. The decision under review cannot be reconciled
with this Court’s decision in Henson v. Santander
Consumer USA or the decisions of numerous
lower courts ............................................................................... 2
B. The decision below is erroneous ............................................ 7
C. The question presented is an exceptionally
important one that warrants the Court’s review
in this case ................................................................................. 9
TABLE OF AUTHORITIES

Cases:
Dorrian v. LVNV Funding, LLC,
94 N.E.3d 370 (Mass. 2018) ............................................... 6
Gold v. Midland Credit Management, Inc.,
82 F. Supp. 3d 1064 (N.D. Cal. 2015)................................ 7
Heintz v. Jenkins, 514 U.S. 291 (1995)............................ 3, 11
Henson v. Santander Consumer USA Inc.,
137 S. Ct. 1718 (2017) .............................................. passim
Midland Funding, LLC v. Johnson,
137 S. Ct. 1407 (2017) ....................................................... 11
Rivas v. Midland Funding LLC,
Civ. No. 18-62440, 2019 WL 4051017
(S.D. Fla. July 31, 2019) ..................................................... 7
Sheriff v. Gillie, 136 S. Ct. 1594 (2016)................................ 11
Statutes:
Fair Debt Collection Practices Act,
15 U.S.C. 1692-1692p ............................................... passim
15 U.S.C. 1692a(6) ............................................................... 9
15 U.S.C. 1692k(a)............................................................... 8

(I)

In the Supreme Court of the United States
No. 19-100
CROWN ASSET MANAGEMENT, LLC, PETITIONER
v.
MARY BARBATO

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY BRIEF FOR THE PETITIONER

The court of appeals in this case reached the nonsensical conclusion that a passive debt buyer that does not
itself collect any debts is nevertheless a “debt collector”
under the Fair Debt Collection Practices Act. In so concluding, the court of appeals engaged in a tortured reading of the FDCPA to circumvent this Court’s decision in
Henson v. Santander Consumer USA Inc., 137 S. Ct. 1718
(2017).
In an effort to fend off review, respondent takes an unusual tack. She argues at length that, as a factual matter,
petitioner engaged in active debt collection. But that argument ignores the actual legal holding that respondent
purports to defend—that petitioner, by virtue of being a
passive debt buyer, is a debt collector under the FDCPA.
(1)

2
Nor can it help respondent in any event, because the activities she cites do not suffice to establish petitioner’s
principal purpose, and Henson precludes the argument
that regular collection activity for one’s own account constitutes debt collection.
Respondent devotes much of the rest of her brief to a
discourse on agency law that skips past the threshold—
and only—question presented by the petition. Only if petitioner is deemed a debt collector under the FDCPA do
the actions of a third-party collector even arguably become relevant (in determining whether petitioner is vicariously liable). Respondent’s arguments about agency law
are nothing more than an exercise in distraction.
When it comes to whether this Court’s review on the
question presented is actually merited, respondent has little to say. Respondent plays down the conflict between
the decision below and the Court’s decision in Henson and
attempts to wave away the lower-court authority on the
question presented. But both the result of the decision
below and its method of analysis effectively circumvent
Henson, and there can be no dispute that numerous lower
courts have reached the opposite result on the question
presented.
Because the court of appeals’ decision is plainly inconsistent with Henson and will have sweeping consequences, the Court’s review is urgently needed. The petition for a writ of certiorari should be granted.
A. The Decision Under Review Cannot Be Reconciled
With This Court’s Decision In Henson v. Santander
Consumer USA Or The Decisions Of Numerous Lower
Courts

1. Respondent devotes a large part of her brief in opposition to ginning up a factual dispute as to whether petitioner engaged in active debt collection. See Br. in Opp.
3-9. She argues that, because petitioner hired a lawyer to

3
file debt-collection lawsuits on its behalf and a third-party
debt collector to collect its accounts, petitioner “regularly
undertakes debt collection activity itself.” Id. at 4.
As a preliminary matter, none of the facts respondent
cites was relevant to the decision under review. In that
decision, the court of appeals categorically held that, by
virtue of profiting from a third party’s collection of a debt,
petitioner was a debt collector. Pet. App. 3a. In so doing,
it explicitly rejected petitioner’s argument that the
FDCPA’s definition of “debt collector” required “overt
acts of collection,” reasoning that the definition includes
entities that do not “actively collect from consumers.” Id.
at 14a (citation omitted). It is that holding—on what the
lower courts recognized as a “controlling question of law,”
id. at 7a—that is now the subject of the Court’s review.
Respondent’s reluctance to defend that holding on its
terms speaks volumes.
In any event, respondent is simply incorrect in asserting that the record contains evidence that petitioner, beyond being a passive debt buyer, also engaged in active
debt collection. See Br. in Opp. 3. The facts here are undisputed. The court of appeals itself recognized that petitioner “does not contact consumers directly.” Pet. App.
3a. In arguing that petitioner engages in active debt collection, respondent places great weight on the fact that
petitioner’s outside counsel files collection lawsuits on its
behalf. See Br. in Opp. 4-5. That is both undisputed and
unremarkable: petitioner does not contest that it has
been a plaintiff in lawsuits or that some of its employees
have provided evidence in connection with those lawsuits.
But that does not constitute debt collection: while a lawyer who carries out litigation activity on behalf of his client can himself be a debt collector, see Heintz v. Jenkins,
514 U.S. 291, 299 (1995), it does not follow that the underlying client becomes a debt collector simply because the

4
lawyer files suit on its behalf. On that theory, every originator or other creditor that hires an attorney to collect a
debt would itself be engaged in debt collection.
Respondent’s focus on petitioner’s contractual agreement with Turning Point Capital (Br. in Opp. 5-7) is similarly misplaced. Again, both the existence and the terms
of that agreement are undisputed. But the agreement
simply shows that petitioner engaged Turning Point to
collect its accounts. See Pet. 10. By equating hiring a
third-party debt collector with engaging in debt collection, respondent would destroy the FDCPA’s targeted
scope: whereas the FDCPA distinguishes between the
principal to whom the debt is owed and the agent hired to
collect it, regulating only the latter, respondent would
seemingly bring every debt owner within its reach.
More fundamentally, respondent’s arguments, even if
accepted, do not aid her. The question before the Court is
whether petitioner is a debt collector under the “principal
purpose” prong of the FDCPA’s definition. Yet respondent cannot plausibly contend that the isolated activities
she cites are sufficient to make the collection of debts petitioner’s principal purpose. Instead, she suggests that
she should prevail because petitioner “regularly undertakes debt collection activity.” Br. in Opp. 4. That, however, is the precise theory the Court rejected in Henson:
viz., that an entity that purchases debts for its own account, and then itself collects those debts, qualifies as a
“debt collector” under the “regularly collects” prong of
the definition. See 137 S. Ct. at 1721-1722. That respondent so baldly flouts Henson only underscores the need for
the Court’s review.
2. Respondent’s defense of the court of appeals’ actual holding fares no better. Having ignored Henson earlier in her brief, respondent proceeds to contend that
Henson “does not apply” here because it involved the

5
“regularly collects” prong, not the “principal purpose”
prong, of the definition of “debt collector.” Br. in Opp. 25.
The problem with that reasoning is that it would create an obvious end-run around Henson. The Court held
in Henson that entities that regularly attempt to collect
on debts held for their own accounts—i.e., the vast majority of members of the debt-buying industry—do not qualify as “debt collectors” under the “regularly collects”
prong. Under the court of appeals’ interpretation of the
“principal purpose” prong, however, all of those entities
would seemingly be swept back into the statute’s reach,
because they would be debt collectors simply by virtue of
being debt buyers. If the court of appeals’ decision is allowed to stand, it would render Henson effectively meaningless.
Respondent attempts to minimize that problem by
noting that, under the court of appeals’ interpretation, an
entity that purchases debts for a “charitable purpose” or
for “the purpose of reselling it to unrelated parties at a
profit” would be exempt from the FDCPA, because its
“principal purpose” would not be debt collection. See Br.
in Opp. 12-13 & n.3. But that is hardly a substantial portion of the debt-buying industry—the primary target of
the plaintiffs’ bar under the FDCPA. See ACA Br. 8. Under the court of appeals’ interpretation, Henson would be
a dead letter.
Respondent also fails to address the court of appeals’
heavy reliance on policy grounds that this Court explicitly
rejected in Henson. See Pet. 15. That silence is telling.
In Henson, the Court refused to engage in “speculation”
about how Congress might have acted if it had considered
a question it “never faced”: namely, how to regulate a
debt-buying industry that did not exist at the time of the
FDCPA’s enactment. 137 S. Ct. at 1725. Yet that is pre-

6
cisely what the court of appeals did, resurrecting the Henson petitioners’ argument to conclude that petitioner
should be treated as a “debt collector” because its “incentives” are analogous to those of a repo man. See Pet. App.
17a.
Put simply, the court of appeals’ decision cannot be
squared with Henson. In light of the enormous practical
consequences of that decision, the Court’s immediate intervention is necessary.
3. Respondent similarly fails to come to grips with
the division of authority in the lower courts on the question presented. See Br. in Opp. 9-12.
Respondent attempts to distinguish the Massachusetts Supreme Judicial Court’s decision in Dorrian v.
LVNV Funding, LLC, 94 N.E.3d 370 (2018), as “turn[ing]” on state law. See Br. in Opp. 2-3. But the Dorrian
court expressly analyzed the FDCPA “because the
FDCPA was the model” for the state law at issue. 94
N.E.3d at 376. In so doing, it concluded—in direct conflict
with the decision below—that passive debt buyers were
“outside of the core concerns of Congress” in enacting the
FDCPA. Id. at 377. Based on that definitive analysis of
the FDCPA, the court reasoned that the same held true
“by implication” for the state law at issue. See ibid. Similarly, while the court relied on the views of a state agency,
it emphasized that the agency’s interpretation respected
the core concerns of Congress—and, by extension, the
state legislature. See id. at 378. Thus, despite respondent’s efforts to suggest otherwise, the court of appeals’ decision directly conflicts with the decision of Massachusetts’s highest court.
Respondent would also write off the numerous district-court decisions that conflict with the decision below,
arguing that those decisions “stem largely from poor records.” Br. in Opp. 11. Once again, however, respondent

7
simply ignores the holding below—that a passive debt
buyer that does not actively collect from consumers categorically qualifies as a debt collector as a matter of law.
Each of those decisions presents the same facts, yet each
comes to the opposite conclusion. See Pet. 16-17. In the
case singled out by respondent, for example, the court rejected the argument that being “in the business of acquiring defaulted debts” qualifies as being “in the business of
collecting on those debts” under the FDCPA. Gold v.
Midland Credit Management, Inc., 82 F. Supp. 3d 1064,
1071 (N.D. Cal. 2015).
Those decisions reflect the general understanding
that prevailed until the court of appeals’ decision in this
case. Since then, however, several district courts have
adopted the court of appeals’ interpretation, relying on its
decision in holding that passive debt buyers do qualify as
debt collectors under the “principal purpose” prong. In
fact, even since this petition was filed, another district
court has done the same, citing “the Third Circuit’s textual analysis” in concluding that a debt purchaser was a
debt collector because its profit model required the collection of its own debts. See Rivas v. Midland Funding
LLC, Civ. No. 18-62440, 2019 WL 4051017, at *5 (S.D. Fla.
July 31, 2019). This Court’s intervention is desperately
needed to correct the court of appeals’ erroneous interpretation before it calcifies in the lower courts.
B. The Decision Below Is Erroneous

On the merits, respondent makes a series of arguments in defense of the court of appeals’ tortured interpretation of the “principal purpose” prong of the definition of “debt collector.” See Br. in Opp. 12-25. Those arguments are scarcely colorable.
1. Respondent primarily argues that principles of the
law of agency should inform whether petitioner is a “debt

8
collector” for purposes of the FDCPA. See Br. in Opp. 1315, 21-25. In particular, respondent argues that the debtcollection activities of the lawyers and debt-collection
agencies that petitioner engages should be imputed to petitioner for purposes of determining whether petitioner’s
“principal purpose” is debt collection. See id. at 13.
That argument puts the cart before the horse. Because the FDCPA imposes civil liability only on “debt collector[s],” 15 U.S.C. 1692k(a), the threshold question is
whether petitioner qualifies as one. Only if the answer is
yes would principles of agency law come into play in determining whether petitioner is vicariously liable under
the FDCPA for the actions of its agents. Even the court
of appeals recognized that an entity must “itself meet[]
the definition of ‘debt collector’ ” before it can “be held vicariously liable” for violations of the FDCPA by another.
Pet. App. 19a (citation omitted). Respondent’s attempt to
bake principles of agency law into the definition of “debt
collector” is little more than an effort to circumvent the
textual limitations on the definition’s scope and to proceed
directly to the question of substantive liability.
2. Respondent likewise ignores the dictionary definitions demonstrating that the noun “collection” requires
the “[a]ct or process of collecting.” See Pet. 18 (citing definitions). Respondent argues that “collection,” like “collects,” “contemplate[s] the acts of human beings attributed to the entity under principles of agency law.” Br.
in Opp. 16. But the critical error in the decision below was
to treat passive debt buying as sufficient—even though it
involves no “acts” of collection—based on a purported distinction between the words “collection” and “collect” that
respondent makes no serious effort to defend. See Pet.
App. 15a. Because petitioner’s principal purpose was not
collecting any debts, it was not a debt collector under the

9
“principal purpose” prong. The court of appeals’ interpretation does violence to the fundamental principle that a
term should bear a consistent meaning across a single
statute. See Pet. 19 (citing cases).
3. Finally on the merits, respondent offers a headscratching response to the point that the “principal purpose” prong says nothing about indirect debt collection.
See Br. in Opp. 16-19. Respondent contends that, under
the “regularly collects” prong, “indirect[]” debt collection
is a limited category, reserved for entities that collect information about debtors or their assets rather than those
that seek to collect money more directly. But that does
nothing to rehabilitate the court of appeals’ decision,
which took the position that the word “collection”—unlike
the word “collect”—itself encompasses indirect as well as
direct collection. See Pet. App. 16a. The court of appeals’
interpretation thereby does violence to yet another interpretive principle—that the express inclusion of language
in one portion of a statute but not another should be given
effect. See Pet. 20 (citing cases).
At bottom, the court of appeals’ decision reflects a policy-driven judgment that the principal who owns a debt
should be treated the same as the debt collector it hires to
collect the debt. But that is not the call that Congress
made. See 15 U.S.C. 1692a(6). The court of appeals’ patently incorrect interpretation of the FDCPA flouts this
Court’s decision in Henson and cannot be allowed to
stand.
C. The Question Presented Is An Exceptionally Important One That Warrants The Court’s Review In
This Case

1. Because the court of appeals’ decision is so deeply
flawed and is so plainly inconsistent with Henson, the
Court should immediately correct it. In arguing otherwise, respondent ignores the significant implications that

10
result from ambiguity about the scope of the FDCPA.
Under the court of appeals’ decision, any entity can be a
“debt collector” if it profits significantly from defaulted
debts—even if it does not itself interact with consumers.
If it is allowed to stand, the decision below will subject
passive debt buyers to lawsuits based on the actions of
third parties beyond their control, will cause purchased
debt to decline in value, and will force loan originators to
recoup their losses by passing on more costs to consumers. See Pet. 23.
As amici explain, the debt-buying industry benefits
consumers by increasing liquidity, thereby making new
capital available to consumers who were previously unable to access it. See RMAI Br. 10, 13. But because passive debt buyers are generally larger than most debt-collection agencies—and have deeper pockets—the plaintiffs’ bar is more likely to target them. See ACA Br. 14.
This case is a paradigmatic example of such behavior: respondent originally filed her putative class action against
the third-party debt collector that actually left the allegedly objectionable voicemail messages, but dismissed it
from the case when its inability to pay substantial damages became clear. See Pet. 5.
While respondent urges the Court to wait for additional courts of appeals to weigh in on this issue (Br. in
Opp. 2), the question presented is a straightforward one
of statutory interpretation, and further percolation will
not materially aid the Court’s review. And the consequences of inaction here—needless litigation, increased
costs to consumers, and disruption of a multibillion-dollar
industry—are compelling. See Pet. 22-24.
2. Respondent’s only remaining argument for delaying review of this question is that further proceedings remain on remand. See Br. in Opp. 8-9. But the legal question presented here—whether petitioner qualifies as a

11
“debt collector” subject to the FDCPA—was conclusively
resolved at the summary-judgment stage in the decision
below, and the only question left for remand is whether
petitioner is liable under the FDCPA’s substantive provisions. The Court regularly reviews FDCPA cases in similar postures. See Midland Funding, LLC v. Johnson,
137 S. Ct. 1407, 1411 (2017); Sheriff v. Gillie, 136 S. Ct.
1594, 1600 (2016); Heintz, 514 U.S. at 294.
In short, the Court should not countenance the court
of appeals’ results-driven approach to statutory interpretation or its disrespect of the Court’s recent decision in
Henson. The question presented here is a legally and
practically important one, and this case is an excellent vehicle for resolving it. Further review is therefore warranted.
*

*

*

*

*

The petition for a writ of certiorari should be granted.
Respectfully submitted.
MARK I. SANDERS
MATTHEW R. ROSENKOFF
TAYLOR ENGLISH DUMA LLP
1600 Parkwood Circle,
Suite 200
Atlanta, GA 30339

SEPTEMBER 2019

KANNON K. SHANMUGAM
MASHA G. HANSFORD
JESSICA A. MORTON
JOEL S. JOHNSON
LAURA E. COX
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

